The Department of Justice Office of the Inspector General (OIG) re-issued the OIG’s report, A
Review of ATF’s Operation Fast and Furious and Related Matters. This report was originally
issued in September 2012. Redactions in the report were based on the Department’s
identification of, among other things, Title III electronic surveillance, or federal wiretap,
information. At the Inspector General’s request, the Department agreed to seek court orders
authorizing the unsealing of portions of the redacted wiretap information pertaining to ATF’s
Operations Wide Receiver and Fast and Furious that did not reveal the content of intercepted
communications or law enforcement sensitive information, and that did not otherwise affect
individual privacy interests. The Department filed such motions, and the motions were granted
recently by the United States District Court for the District of Arizona. The re-issued report
contains wiretap information that can now be made public. The re-issued report has been
posted on the OIG’s website and transmitted to the relevant Congressional oversight
committees.

The report can be found at the following
link: http://www.justice.gov/oig/reports/2012/s1209.pdf.
